App. 1
APPENDIX

Contents:
Arkansas Court of Appeals Opinion
Letter Order Denying Rehearing
Letter Order Denying Review

App. 2
App. 13
App. 14

United States Constitution, Amendment V

App. 15

United States Constitution, Amendment XIV
Section 1.

App. 15

Ark. Code Ann. § 3-8-803(a)

App. 16

Ark. Code Ann. §3-9-221

App. 16

Ark. Code Ann. § 16-111-102

App. 21

App. 2
ARKANSAS COURT OF APPEALS
Division I
No. CV-18-638
Opinion Delivered: March 6, 2019
DAVID BRENNAN,
APPELLANT
V.
WHITE COUNTY, ARKANSAS,
APPELLEE
APPEAL FROM THE
WHITE COUNTY CIRCUIT COURT
[NO. 73CV-17-502]
HONORABLE CRAIG HANNAH, JUDGE
AFFIRMED
BART F. VIRDEN, Judge
David Brennan challenges the White County
Circuit Court's order dismissing his request for
declaratory judgment regarding the constitutionality
of the White County ordinance prohibiting the
manufacture and sale of alcohol and the “localoption” set forth in Arkansas Code Annotated
sections 3-8-801 to -811. We affirm.
I. Relevant Facts
On September 11,2017, Brennan filed a
complaint in the White County Circuit court
requesting that the court determine the

App. 3
constitutionality of the local-option framework
allowing White County citizens to vote to prohibit
the manufacture and sale of alcoholic beverages. In
his complaint, Brennan asserted that the local-option
framework is unconstitutional on its face and
violates his substantive due-process rights; namely,
his right to contract and association. Brennan, who
lives in Searcy, asserted that he wishes to apply for a
liquor license and open a package store in his home
town, that he wants to consume alcohol at
restaurants in Searcy, and that he would like the
option to purchase alcohol at stores without having
to travel outside his county. Brennan contended that
prohibition of the sale of alcohol in white County
negatively affects his ability to safely travel along
the county highways, and he suffers an
“unnecessarily increased risk of being involved in an
alcohol-related, fatal crash.” Brennan also argued
that in dry counties, drug-related crime constitutes a
greater threat to the public than in counties where
the sale of alcohol is legal.
White County filed a motion to dismiss
Brennan's complaint, arguing that the local option
framework is constitutional as a matter of law.
Brennan responded to the motion to dismiss,
contending that there is no governmental purpose
furthered by the local-option framework. Brennan
urged the circuit court to apply the heightened level
of scrutiny provided for in the Arkansas Constitution
to determine the constitutionality of the statutes.
White County countered Brennan's argument by
explaining the myriad government interests served
by the local-option laws, including the promotion of

App. 4
public health, reduction in crime and related lawenforcement costs, increase in worker productivity,
and reduction of health-care costs. White County also
asserted that under either the Arkansas Constitution
or the federal Constitution, the rational-basis test is
the appropriate test for ascertaining the
constitutionality of the statutes.
On April 24, 2018, the circuit court entered an
order dismissing Brennan's complaint. The circuit
court determined that White County's local-option
ordinance and the statutory framework allowing the
local option are subject to the rational-basis test
under the due-process provisions of both the
Arkansas constitution and the U.S. constitution and
that the local-option framework is constitutional as a
matter of law. Brennan timely filed his notice of
appeal.
On appeal, Brennan asserts that both the
statutory local-option framework and the local
prohibition of alcohol sales in White County violate
citizens' “rights of contract and association” and “the
right to engage in otherwise legal business activities
and relationsU” He argues that no legitimate state
interest is furthered by these laws and that police
power may not be used to impose the “majority
morality” on those whose conduct does not harm
others. Brennan also asserts that the Arkansas
Constitution requires a heightened level of scrutiny
for the state's use of police power.
Alternatively, Brennan argues that if this
court decides there is a legitimate state interest
involved here, the local-option framework is an
arbitrary and ineffective way of advancing those

App. 5
interests; thus, the framework is unconstitutional.
Lastly, Brennan contends that subsequently enacted
legislation fundamentally conflicts with the localoption framework, rendering the local option “the
quintessence of irrational.” We affirm.
II. Standard ofReview
This court reviews a circuit court's decision to
grant a motion to dismiss pursuant to Arkansas Rule
of civil Procedure 12(b)6) by treating the facts alleged
in the complaint as true and by viewing them in the
light most favorable to the plaintiff Archer v. Sigma
Tau Gamma Alpha Epsilon, Inc., 2010 Ark. 8, at 4,
362 S.W.3d 303,306. In viewing the facts in the light
most favorable to the plaintiff the facts should be
liberally construed in the plaintiffs favor. Id. Our
rules require fact pleading, and a complaint must
state facts, not mere conclusions, in order to entitle
the pleader to relief. Id.
III. Points on Appeal
A. The Rational-Basis Tfest
First, we address Brennan's assertion that the
circuit court erred in finding that the rational basis
test is the correct test to determine the
constitutionality of the local-option framework.
Brennan urges this court to perform its analysis
under a heightened level of scrutiny; however, his
argument is not well taken, and we hold that the
rational-basis test applies here.
Brennan contends that Arkansas law requires
that “legislation must bear a real or substantial
relationship to the protection of public health, safety
and welfare, in order that personal rights and
property rights not be subjected to arbitrary or

App. 6
oppressive, rather than reasonable invasion.”
Brennan likens this case to Jegley v. Picado, 349 Ark.
600, 80 S.W.3d 332 (2002), in which our supreme
court struck down the sodomy statute as
unconstitutional and held that by burdening certain
sexual conduct between members of same sex, the
statute infringed on the fundamental right to privacy
guaranteed under State Constitution. The instant
case is distinguishable from Picado because here, no
fundamental rights are at stake. In Yarbrough v.
Beardon, 206 Ark. 553, 177 S.W.2d 38 (1944), our
supreme court held that local-option elections are not
an unconstitutional delegation of executive or
legislative authority, and liquor-license holders are
not deprived of any fundamental right by the local
option because holding a liquor license is a privilege not a fundamental property right.
More recently, in Shannon v. Wilson, 329 Ark.
143, 158, 947 S.W.2d 349, 357 (1997), our supreme
court held, “The legislature has enacted statutes
which regulate the liquor industry. Foremost, our
legislature has declared that holding a license to sell
alcoholic beverages is a privilege, not a right. Ark.
Code Ann. $ 3-3-218(a) (Repl.1996).” Indeed,
Arkansas Code Annotated section 3-3-218(a)
provides, “It is the specifically declared policy of the
General Assembly that all licenses issued to
establishments for the sale or dispensing of alcoholic
beverages are privilege licensesU” No fundamental
rights are at stake, and the circuit court did not err
in finding that the rational-basis test is the
appropriate test for evaluating the constitutionality

App. 7
of the local-option framework.1
Another reason the rational-basis test is the
correct approach here is that when a statute falls
within the General Assembly's police powers to
regulate an industry of general public interest, we
apply the rational-basis test. McLane S., Inc. v.
Davis,366 Ark. 164, 167, 233 S.W.3d 674, 677 (2006).
The states have the power to regulate alcohol
pursuant to the Twenty-first Amendment which
repealed prohibition and set forth that “[t]he
transportation or importation into any State,
Territory, or possession of the United States for
delivery or use therein of intoxicating liquors, in
violation of the laws thereof, is hereby prohibited.”
U.S. Const, amend. XXI. There is a presumption in
favor of the validity of state regulation in the area of
liquor control. California v. laRue, 409 U.S. 109, 11819, (1972). A state has broad power to regulate the
times, places, and circumstances under which it will
permit the sale of liquor. New York State Liquor
Auth. v. Bellanca, 452 U.S. 714, 715 (1981) (per
curiam). The regulation of alcohol is of general public
interest; thus, the rational-basis test is applicable
1 Brennan cites to multiple cases in which our supreme court
evaluates the constitutionality of various statutes at a
heightened level of scrutiny. Each of the cases he cites are
distinguishable because they involve a fundamental right
that is curtailed in some way by the enacted legislation. See
Craighead Elec. Coop. corp. v. Craighead Cty., 352 Ark. 76,
98 S.W.3d 414 (2003) (interaction of utility easement and
private-property rights); Hand v. H&R Block, Inc., 258 Ark.
774,781,528 S.W.2d 916, 920 (1975) (property rights in
franchise name); Beaty v. Humphrey, 195 Ark. 1008, 115
S.W.2d 559 (1938) (property rights of barbers).

App. 8
here.2
Under the rational-basis test, legislation is
presumed constitutional and rationally related to
achieving any legitimate governmental objective
under any reasonably conceivable fact situation.
Eady v. Lansford, 351 Ark. 249, 92 S.W.3d 57 (2002).
Additionally, all statutes are presumed
constitutional, and we resolve all doubts in favor of
constitutionality. Ark. Tobacco Control Bd. v. Sitton,
357 Ark. 357, 166 S.W.3d 550 (2004). The party
challenging a statute's constitutionality has the
burden of proving that the act is unconstitutional.
See id. It is not our role to discover the actual basis
for the legislation. Ark. Hosp. Ass'n v. Ark. State Bd.
ofPharm., 297 Ark.454,763 S.W.2d 73 (1989). We
merely consider whether there is any rational basis
2 Brennan asserts that voter-enacted “initiatives and
referenda are inconsistent with the republic form of
government - because, lacking the standards and controls of
a deliberative legislative body, they offer no protections
against a tyranny of the majority.” Brennan offers no
persuasive authority for his argument, and again he cites us
to a case in which fundamental rights are at stake, and the
voter-enacted initiative directly violates constitutional
principles. See Hunter v. Erickson,393 U.S. 395 (1969)
(implementation of a racially discriminatory city ordinance
through popular referendum did not immunize it from
constitutional challenge). He also cites to City ofEastlake v.
Forest city Enterprises, Inc., 426 U.S. 668, 679 (1976), in
which the Supreme Court held, “As a basic instrument of
democratic government, the referendum process does not, in
itself, violate the Due process clause of the Fourteenth
Amendment when applied to a rezoning ordinance.”
Brennan's argument that voter-enacted initiatives require a
heightened level of scrutiny is unsupported and
unpersuasive.

App. 9
that demonstrates the possibility of a deliberate
nexus with state objectives so that the legislation is
not the product of arbitrary and capricious
government purposes. Streight v. Ragland, 280 Ark.
206, 655 S.W.2d 459 (1983). If we determine that any
rational basis exists, the statute will withstand the
constitutional challenge. Ark. Hosp. Ass'n, supra.
B. Majority Morality
We now turn to Brennan's first argument that
the local-option framework is unconstitutional
because it serves no purpose other than to impose
'majority morality” on the citizens of Arkansas. We
disagree and affirm.
Brennan contends that “the reason and only
purpose of the local option is to sate the desire of the
local majorities to impose their morality on the whole
of their populations while allowing the State to
benefit from a considerable alcohol economy carried
out by the less righteous.” Again, Brennan compares
the instant case to Picado. Brennan urges this court
to determine, as it did in Picado, that there is no
legitimate government interest furthered by the
challenged statutes and that the only purpose served
is to impose a “majority morality.” Brennan's
argument fails. In Picado, our supreme court
recognized that there is no government interest
furthered by regulating noncommercial, consensual
sexual conduct and that the statute's criminalization
of that conduct is an unconstitutional infringement
on the right to privacy. However, the courts have long
recognized the legitimate government interest in
promoting the public health, safety, and welfare
associated with the regulation of alcohol. Indeed, in

App. 10
Gipson v. Morley, 217 Ark. 560, 567, 233 S.W.2d 79,
83 (1950), our supreme court held that “it is within
the competency of the legislature to determine under
the police power what regulatory rules are needful in
controlling a type of business fraught with perils to
public peace, health and safety as is the liquor
business.”
The history of the legitimacy of the government
interest in regulation of alcohol is not the issue,
however. White County has no obligation to produce
evidence to sustain the rationality of a statutory
classification. See Heller v. Doe by Doe, 509 U.S. 312,
320 (1993). Rational-basis review in equal protection
analysis “is not a license for courts to judge the
wisdom, fairness, or logic of legislative choices.” FCC
v. Beach Commc’ns, Inc., 508 U.S. 307, 313 (1993).
The courts may not act as a superlegislature “to
judge the wisdom or desirability of legislative policy
determinations made in areas that neither affect
fundamental rights nor proceed along suspect lines.”
New Orleans v. Dukes, 427 U.5. 297,303 (1976).
Instead, the statute “must be upheld against equal
protection challenge if there is any reasonably
conceivable state of facts that could provide a
rational basis for the classification.” Beach
Commc'ns, 508 U.S. at 313. As White County states
in its brief, the correlation between alcohol misuse
and detrimental effects on a person’s health is one of
many rational bases for the local-option framework;
thus, Brennan has failed to meet his burden of
proving that the local-option framework is not
rationally related to achieving any legitimate
objective of state government under any reasonably

App. 11
conceivable state of facts.
C. Effectiveness of the Local-Option Framework
Brennan's second challenge to the local-option
framework is his contention that it is ineffective at
furthering the stated government interests of
promoting public health, safety, and welfare! thus,
the local-option framework is arbitrary and
unconstitutional. Brennan cites to research and
studies to support his argument that the local option
is an ineffective means for promoting highway safety
and the reduction of crime. Because the effectiveness
of the legislation is not a factor in determining a
statute's constitutionality, we affirm.
When reviewing statutes under the rationalbasis test, the court must not “review the wisdom or
rightness of the legislation” but must only determine
if there is any reasonable basis to support it. Four
Cty. (NW) Reg'l Solid Waste Mgmt. Dist. Bd. v.
Sunray Servs., Inc., 334 Ark. 118, 127, 971 S.W.2d
255, 260 (1998). As we discussed above, the
promotion of public health is a reasonable basis for
the existence of the local-option framework. Brennan
presents a public-policy argument that the localoption framework does more harm than good when it
comes to road safety and illegal-drug abuse! however,
effectiveness of the statutes in furthering the
government interest is immaterial to our analysis,
and Brennan cites no persuasive authority to
support his argument that arguably ineffectual
legislation is unconstitutional. On this point, we
affirm.
D.
Acquired Irrationality Due to Subsequent
Legislation

App. 12
Lastly, Brennan argues that subsequent
legislation, such as the local option to allow private
clubs to serve alcohol within an otherwise dry county,
has rendered the local-option framework
meaningless; thus, there is no rational basis for the
statutes, and they are unconstitutional. Brennan
cites no authority to support his argument that
subsequent legislation can undermine the
constitutionality of previously enacted legislation.
This court may refuse to consider an argument when
appellant fails to cite any legal authority, and the
failure to cite authority or make a convincing
argument is sufficient reason for affirmance. Moody
v. Moody 2077 Ark. App. 582, at 12, 533 S.W.3d 152,
160. Moreover, as White County explains, the localoption statutes and the exemption for private clubs
set forth in Arkansas Code Annotated section 3-9-221
can be read in harmony. Section 3-9-227 provides
that the private-club exemption in dry counties
furthers the state interest in promoting economic
development and tourism by allowing the sale of
alcoholic beverages by the individual drink at private
clubs. The counties that opt to remain dry may
decide to prohibit alcohol sales at liquor stores,
convenience stores, grocery stores, and any other
establishment where alcohol may legally be sold;
thus, the private-club exemption does not render the
local-option framework irrational or
unconstitutional.
Affirmed.
ABRAMSON and HIXSON, JJ„ agree.

App. 13
OFFICE OF THE CLERK
ARKANSAS COURT OF APPEALS
625 MARSHALL STREET
LITTLE ROCK, AR 72201
APRIL 3, 2019
RE:

COURT OF APPEALS CASE NO. CV-18-638
DAVID BRENNAN V. WHITE COUNTY,
ARKANSAS

THE ARKANSAS COURT OF APPEALS
ISSUED THE FOLLOWING ORDER TODAY IN
THE ABOVE STYLED CASE:
“APPELLANT’S PETITION FOR
REHEARING IS DENIED.”
SINCERELY,
/s/ Stacey Pectol
STACEY PECTOL,
CLERK
CC:

DAVID BRENNAN
COLIN JORGENSEN
WHITE COUNTY CIRCUIT COURT
(73CV-17-502)

App. 14
OFFICE OF THE CLERK
ARKANSAS SUPREME COURT
625 MARSHALL STREET
LITTLE ROCK, AR 72201
MAY 23, 2019
RE:

SUPREME COURT CASE NO. CV* 19-228
DAVID BRENNAN V. WHITE COUNTY,
ARKANSAS

THE ARKANSAS SUPREME COURT
ISSUED THE FOLLOWING ORDER TODAY IN
THE ABOVE STYLED CASE:
“APPELLANT'S PETITION FOR REVIEW IS
DENIED. WOOD, J„ WOULD GRANT”
SINCERELY,
Is/ Linda Ryerson
LINDA RYERSON,
CHIEF DEPUTY CLERK
CC:

DAVID BRENNAN
COLIN JORGENSEN
WHITE COUNTY CIRCUIT COURT
(73CV-17-502)

App. 15
United States Constitution Amendment V
Amendment V
No person shall be held to answer for a capital, or
otherwise infamous crime, unless on a presentment
or indictment of a grand jury, except in cases arising
in the land or naval forces, or in the militia, when in
actual service in time of war or public danger; nor
shall any person be subject for the same offense to be
twice put in jeopardy of life or limb; nor shall be
compelled in any criminal case to be a witness
against himself, nor be deprived of life, liberty, or
property, without due process of law! nor shall
private property be taken for public use, without just
compensation.
United States Constitution Amendment XIV,
Section 1.
Amendment XIV
Section 1.
All persons born or naturalized in the United States,
and subject to the jurisdiction thereof, are citizens of
the United States and of the state wherein they
reside. No state shall make or enforce any law which
shall abridge the privileges or immunities of citizens
of the United States; nor shall any state deprive any
person of life, liberty, or property, without due
process of law; nor deny to any person within its
jurisdiction the equal protection of the laws.

App. 16
Ark. Code Ann. § 3-8-803(a)
(a) An election to determine whether licenses will be
granted for the manufacture or sale or the bartering,
loaning, or giving away of intoxicating liquor shall be
called by a petition signed by registered voters in the
designated county, township, municipality, ward, or
precinct in a number equal to thirty-eight percent
(38%) of the registered voters.
Ark. Code Ann. §3-9-221
(a) The General Assembly recognizes that:
(l) Many individuals in this state serve mixed
drinks containing alcoholic beverages to their friends
and guests in the privacy of their homes and, in
addition, that many individuals associated together
in private nonprofit corporations established for
fraternal, patriotic, recreational, political, social, or
other mutual purposes as authorized by law,
established not for pecuniary gain, have provided for
their mutual convenience and for the preparation
and serving to themselves and their guests mixed
drinks prepared from alcoholic beverages owned by
the members individually or in common under a socalled "locker", "pool", or "revolving fund" system;
(A) Many of the restaurants and
entertainment facilities used for the meetings and
conventions promote the hospitality of the host
communities where the restaurants, convention, and
entertainment facilities are located;

App. 17
(B) Many of the host organizations plan
to serve mixed drinks containing alcoholic beverages
to their friends and guests at these meetings and
while entertaining and dining during these
conventions; and
(C) Many of the host communities have
individuals who have associated together in private
nonprofit corporations established for recreational,
social, community hospitality, professional
association, entertainment, or other mutual purposes
established, not for pecuniary gain, but for their
mutual convenience and to provide for the
preparation and serving to themselves and their
guests mixed drinks prepared from alcoholic
beverages owned by the members individually or in
common under a so-called locker, pool, or revolving
fund system; and
(i) That there are a number of
(3) (A)
counties or parts of counties where the pub he retail
sale of intoxicating liquors has not been approved by
the voters.
(ii) However, within those
counties or parts of counties there are significant
developments of tourism facilities and large-event
facilities that promote the economic development of
the state.
(B) Tb ensure that tourism and largeevent facilities as well as other associated activities
are allowed to exist to promote the economic
development in the state, a new hotel or large-event
facility private club permit, for use in those places
where the public retail sale of intoxicating liquors is
not authorized, should be created.

App. 18
(C) These permits are necessary so that
persons visiting hotels or large-event facilities in
these areas will be able to enjoy the amenities that a
person might find in other states.
(D) This additional permit will enhance
the experience of going to hotels or large-event
facilities that may display items of historic interest,
contain extensive art collections, or host musical or
dramatic presentations.
(E) G) Further, since the counties or
parts of counties in which these hotels or large-event
facilities will be located do not allow the open public
retail sale of intoxicating liquors, the nonprofit
corporations that have been established to have the
hotel facilities or the large-event facilities should be
allowed to offer alcoholic beverages to members of
the nonprofit corporations and their guests.
(id) These nonprofit corporations
have been established for the purpose of operating a
qualifying hotel or large-event facility private club or
other mutual purposes, not for pecuniary gain, but
for their mutual convenience and to provide for the
preparation and serving to the members and their
guests alcoholic beverages owned by the members
individually or in common under a locker, pool, or
revolving fund system.
(b)
(l) In order to clarify the alcoholic beverage
control laws of this state and to regulate and prohibit
the sale of alcoholic beverages in violation of the
provisions of this subchapter and other applicable
alcoholic beverage control laws of this state, the
General Assembly determines that the preparation,
mixing, and serving of mixed drinks, beer, and wine

App. 19
for consumption only on the premises of a private
club as defined in § 3-9-202(14) by the members
thereof and their guests and the making of a charge
for such services shall not be deemed to be a sale or
be in violation of any law of this state prohibiting the
manufacture, sale, barter, loan, or giving away of
intoxicating liquor whenever:
(A) The alcoholic beverages, beer, and
wine so consumed have been furnished or drawn
from private stocks thereof belonging to such
members, individually or in common under a socalled locker, pool, or revolving fund system and are
replenished only at the expense of such members;
and
(B) The private club has acquired a
permit from the Alcoholic Beverage Control Board, in
such form as the board may appropriately determine.
(2)
(A) A private club may serve any
alcoholic beverage furnished or drawn under the
provisions of subdivision (b)(l) of this section on the
golf course on which the private club is located when
the private club is hosting a professional golf
tournament or other charitable golf tournament
sponsored by a charitable organization described in
26 U.S.C. § 501(c)(3) and the Director of the Alcoholic
Beverage Control Division has been notified by the
private club at least sixty (60) calendar days prior to
the beginning of the event.
(B) Persons attending the event shall
be deemed guests of the private club, and the club
may serve the alcoholic beverages to the guests for
cash.

App. 20
regulations he or she deems necessary to implement
this subdivision (b)(2).
(c) In order to clarify the alcoholic beverage control
laws of this state and to regulate and prohibit the
sale of alcoholic beverages in violation of the
provisions of this subchapter and other applicable
alcoholic beverage control laws of this state, the
General Assembly determines that the preparation,
mixing, and serving of wine and beer for
consumption only by the lodging guests on the
premises of a bed and breakfast private club as
defined in § 3-9*202(2) and the making of a charge
for such services shall not be deemed to be a sale or
to be in violation of any law of this state prohibiting
the manufacture, sale, barter, loan, or giving away of
intoxicating liquor whenever^
(1) The wine and beer so consumed have been
furnished or drawn from private stocks belonging to
an owner of the bed and breakfast private club and
are replenished only at the expense of such owner;
(2) The wine and beer consumed must have
been purchased in an Arkansas licensed retail
alcoholic beverage store, as authorized by the
director;
(3) The average annual volume of wine and
beer consumed shall not exceed three gallons (3
gals.) per month per guest room; and
(4) The bed and breakfast private club has
acquired a permit from the board in such form as the
board may appropriately determine.

App. 21
Ark. Code Ann. § 16-111-102
Any person interested under a deed, will, written
contract or other writings constituting a contract, or
whose rights, status or other legal relations are
affected by a statute, municipal ordinance, contract
or franchise, may have determined any question of
construction or validity arising under the
instrument, statute, ordinance, contract, or franchise
and obtain a declaration of rights, status or other
legal relations thereunder.

